USAID
OFFICE OF INSPECTOR GENERAL
             Audit of USAID/Bulgaria’s
              Recipient Audit Universe




            Audit Report No. B-183-01-002-P

                            January 18, 2001
                         Budapest, Hungary




                                   U.S. Agency for
                        International Development
             U.S. A GENCY FOR
             INTERNATIONAL
              DEVELOPMENT

             RIG/BUDAPEST


                                                                               January 18, 2001

             MEMORANDUM

             FOR:               USAID/Bulgaria Director, Debra D. McFarland

             FROM:              Director of Audit Operations, RIG/Budapest, Nathan S. Lokos

             SUBJECT:           Audit of USAID/Bulgaria’s Recipient Audit Universe, Report
                                Number B-183-01-002-P


             This is a report on the subject audit. The report concludes that USAID/Bulgaria
             developed an accurate and complete audit universe of its non-U.S. awards and took
             several positive actions to establish an audit management system in accordance
             with the requirements of ADS Chapter 591. However, the Mission needed to: (1)
             formalize its written procedures and (2) document proceedings of the Management
             Control Review Committee meetings.

             Accordingly, we have made two recommendations to address the above findings.
             In finalizing this report, we considered your comments on the draft report and have
             included them in their entirety in Appendix II herein.

             I appreciate the cooperation and courtesy extended to my staff during the audit.




Background   Financial audits of contracts and grants are a primary basis for effective
             management and control of USAID’s program expenditures. These audits are
             designed to provide Agency management reasonable assurance that transactions
             are properly recorded and accounted for; laws and regulations, and provisions of



             Page 1 of 8                                           Audit Report No. B-183-01-002-P
contract or grant agreements are complied with; and USAID-financed funds,
property and other assets are safeguarded against unauthorized use or disposition.

In response to Congressional concerns, USAID has taken an active role in recent
years using audits as a management tool to improve financial accountability of its
programs. During 1991 and 1992, the Agency revised its standard provisions for
its contracts and grants, requiring annual audits of non-U.S. organizations
disbursing USAID funds of $25,000 or more. The threshold was increased to
$100,000 in May 1994 and to $300,000 in July 1998.

Furthermore, in April 1992, USAID issued a General Notice, defining the role of
USAID missions in obtaining audits of their contracts, grants and cooperative
agreements with non-U.S. organizations. In May 1996, these requirements were
incorporated into chapter 591 of USAID’s Automated Directives System (ADS)
which, among other things, requires USAID missions to (i) establish an audit
management program; (ii) maintain an audit inventory database; and (iii) have
audits done for non-U.S. grants, contracts and cooperative agreements that meet
the audit threshold.

These initiatives are of far reaching consequence in preventing misuse of USAID
development funds and facilitating timely corrective actions by the Agency. Lack
of adequate audit coverage constitutes an unacceptable risk because, without such
a control mechanism, financial accountability of program expenditures cannot be
reasonably assured.

In March 1995, the Office of Inspector General (OIG) issued Audit Report No. 3-
000-95-009 on USAID’s implementation of the Agency’s 1992 initiative to
improve the financial management of its programs. The report concluded that
most missions had implemented the general requirements of the financial audit
management program and established audit inventory databases. However,
complete coverage was impaired as a result of obstacles arising from host
government restrictions and local audit firm capabilities.

In March 1998, the OIG issued Audit Report No. 9-000-98-002-F on USAID
missions’ roles in obtaining audits of their contracts, grants, and cooperative
agreements. The report concluded that 11 of the 14 USAID missions selected
USAID-wide generally obtained audits of their contracts, grants, and cooperative
agreements as required by ADS chapter 591. However, a significant number of
required audits were not completed at 10 of the above 14 USAID missions.

In May 1999, OIG management decided to verify the accuracy of USAID
missions’ recipient audit universe worldwide over a period of three years because
lack of audit coverage was perceived as a high-risk area. Accordingly, the Office
of the Regional Inspector General, Budapest (RIG/Budapest) included this audit in
its fiscal year 2001 Audit Plan.




Page 2 of 8                                        Audit Report No. B-183-01-002-P
Audit Objective   RIG/Budapest performed this audit to answer the following question:

                  Is USAID/Bulgaria’s audit universe complete and accurate and were required
                  audits done in a timely manner?

                  The audit scope and methodology are described in Appendix I.



Audit Findings    The audit showed that USAID/Bulgaria developed an accurate audit universe of its
                  non-U.S. awards. For the period audited, none of these awards met the required
                  audit threshold of $300,000 in annual disbursements and, therefore, did not require
                  audits. Nevertheless, audits of two non-U.S. grants were conducted based on
                  Mission management’s risk assessment. Our review of the reports showed that
                  they complied with USAID’s guidelines on financial audits of foreign recipients.

                  During the year ended September 30, 2000, USAID/Bulgaria disbursed
                  approximately $15.6 million in awards to 41 U.S. and 26 non-U.S. recipients. The
                  table below provides a breakdown of these amounts by type of agreement and the
                  number of such awards:

                                            U.S.               Non-U.S.                 Total
                        Type of      Disbursements and     Disbursements and     Disbursements and
                       Agreement      No. Of Awards         No. Of Awards         No. Of Awards
                      Contract          $8,589,012   24           $- 0 -    0       $8,589,012     24
                      Grant              2,063,063    7       1,910,858    26        3,973,921     33
                      Cooperative
                                         3,066,080   10             - 0-   0         3,066,080     10
                      Agreement
                      TOTALS           $13,718,155   41      $1,910,858    26     $15,629,013      67


                  Our audit showed that the Mission included the above awards in its database
                  inventory system and periodically reviewed the non-U.S. awards to determine if
                  any met the audit threshold and, therefore, were subject to audit coverage.

                  In addition, we found that USAID/Bulgaria took several actions to establish an
                  audit management system in accordance with the requirements of ADS Chapter
                  591. Specifically:

                  •    USAID/Bulgaria established a Management Control Review Committee
                       (MCRC) comprised of key Mission officials whose responsibilities include: (1)
                       overseeing the Mission’s audit management program; (2) conducting quarterly
                       meetings to review progress towards implementation of this program; (3)


                  Page 3 of 8                                         Audit Report No. B-183-01-002-P
    evaluating and assessing the Mission’s management controls in order to
    identify significant weaknesses; and (4) coordinating preparation of the
    Mission’s statutory annual reports required under the Federal Managers’
    Financial Integrity Act (FMFIA). A Mission Order was drafted in August
    2000, defining duties and responsibilities of the MCRC.

•   In March 2000, the Mission designated an Audit Management Officer (AMO)
    to coordinate and monitor the Mission’s financial audit program and follow-up
    on implementation of audit recommendations. A Mission Order was drafted in
    August 2000, defining the duties and responsibilities of the AMO.

•   In August 2000, USAID/Bulgaria drafted a comprehensive Mission Order on
    audit management and resolution to facilitate: (1) planning, scheduling, and
    following up audits, (2) establishing an effective audit tracking system, and (3)
    providing guidance to cognizant Mission officials on implementing the
    Mission’s audit management program.

•   In September 2000, the AMO developed an Audit Management Plan for fiscal
    year 2001, which is currently awaiting approval by management.

Moreover, the AMO regularly coordinated with USAID/Bulgaria’s accounting
station, the USAID Regional Financial Management Center in Budapest, Hungary
to maintain and update a database inventory of non-U.S. grants, contracts, and
cooperative agreements, identify those awards that meet the audit threshold of
$300,000, and to schedule, monitor, and track such audits. Our tests on the
database inventory showed that the information therein was accurate and complete.

Furthermore, as part of its reporting responsibilities under the FMFIA, Mission
officials identified certain areas of improvement in its audit management system
and took adequate steps to address the problems.

The above actions have established a sound foundation for an efficient and
effective audit management system. However, we noted that USAID/Bulgaria
needs to: (1) formalize its Mission Orders, and (2) maintain written records that
document the proceedings of its MCRC meetings and the decisions taken by
management on implementing its audit management program. These findings are
described below in detail.

USAID/Bulgaria Should Formalize
Its Mission Orders and Document
Proceedings of Its Committee Meetings

A sound and effective internal control system requires that adequate documents be
maintained and regularly updated to record: (1) procedures established and
authorized by management, (2) minutes of meetings conducted by management,
and (3) decisions reached on matters of importance.


Page 4 of 8                                          Audit Report No. B-183-01-002-P
                 USAID/Bulgaria has drafted two Mission Orders that provide guidance on
                 implementing its audit management program and the functioning of its
                 Management Control Review Committee. While the Mission Orders are
                 comprehensive and well written, these have not yet been formally approved by
                 management and are, therefore, ad hoc in nature. According to the Audit
                 Management Officer, the draft Mission Orders have not been finalized because the
                 documents have not yet been reviewed by all cognizant officials whose opinions
                 and inputs need to be considered before final approval is given by management.

                 Furthermore, there is a lack of adequate written records documenting
                 implementation of the audit management program. According to the AMO, the
                 MCRC meets every quarter to monitor, review and make decisions on audit-related
                 matters. However, no documents are available recording the proceedings of such
                 meetings. Without such written records, it is difficult to determine to what extent
                 the Mission is fulfilling its audit management responsibilities.

                 The AMO acknowledged the lack of written records and stated that recent changes
                 in audit management officials may have disrupted the recording of MCRC
                 proceedings and preparation of written records. In order to conduct its audit
                 management responsibilities efficiently and effectively, the Mission needs to
                 formalize its policies and procedures and document proceedings of its management
                 committee meetings. Therefore, we are making the following recommendations:

                 Recommendation No. 1: We recommend that USAID/Bulgaria formalize the
                 Mission Orders on its audit management program.

                 Recommendation No. 2: We recommend that USAID/Bulgaria maintain
                 written records of the proceedings of its Management Control Review
                 Committee meetings.



Management       USAID/Bulgaria concurred with the findings and recommendations of the audit
Comments and     report and took appropriate corrective actions to implement Recommendation Nos.
Our Evaluation   1 and 2.

                 Specifically, the Mission Director signed all Mission Orders on January10, 2001
                 and the Executive Officer prepared minutes for all MCRC meetings which were
                 cleared by the committee and filed by the Mission.

                 Based on the actions taken, we consider that the required management decisions
                 and final actions have been taken by USAID/Bulgaria on the aforementioned
                 recommendations to permit their closure.




                 Page 5 of 8                                         Audit Report No. B-183-01-002-P
                                                                                Appendix I




Scope and     Scope
Methodology
              The audit was done in accordance with generally accepted government auditing
              standards and assessed whether (1) USAID/Bulgaria’s audit universe was complete
              and accurate, and (2) required audits were done in a timely manner.

              Fieldwork was performed at the Mission’s office in Sofia, Bulgaria and at its
              accounting station at the USAID Regional Financial Management Center in
              Budapest, Hungary from November 6 through November 22, 2000. The audit
              covered approximately $1.9 million of USAID disbursements to 26 non-U.S.
              recipients during the fiscal year 2000 and included:

              (1) reviewing USAID/Bulgaria’s audit management program and related
                  documents,

              (2) interviewing cognizant Mission officials,

              (3) reviewing the Mission’s database universe of contracts, grants, and
                  cooperative agreements, and

              (4) identifying awards that require audits.

              In addition, we obtained information on (1) total disbursements for all grants,
              contracts and cooperative agreements (U.S. and non-U.S.) for USAID’s most
              recent fiscal year ended September 30, 2000 and, (2) the number and amount of
              grants, contracts and cooperative agreements falling below the audit threshold of
              $300,000 to obtain a complete picture of the Mission’s portfolio.

              The audit criteria principally comprised of Chapter 591 of USAID’s Automated
              Directives System (ADS) and the OIG’s “Guidelines for Financial Audits
              Contracted by Foreign Recipients” (Guidelines), revised in July 1998.

              Methodology

              The methodology included (1) reviewing the Mission’s audit inventory database to
              determine if it contains the information needed to identify, monitor and track
              awards that need to have audits, (2) examining documents concerning the audit
              management program, and (3) conducting interviews with cognizant officials to
              determine whether the Mission has met its responsibilities established by ADS
              Chapter 591 and the Guidelines.

              To answer our audit objective, we obtained the universe of USAID/Bulgaria’s
              grants, contracts and cooperative agreements and determined the number and
              dollar amounts of all agreements with non-U.S. organizations subject to audit



              Page 6 of 7                                       Audit Report No. B-183-01-002-P
                                                                    Appendix I


coverage at September 30, 2000. The above information was obtained from the
Mission’s contract files and the Mission Accounting and Control System (MACS)
database maintained at its accounting station in Budapest, Hungary.

We then ascertained whether: (1) such agreements were included in the Mission’s
audit database inventory, (2) required audits were completed on a timely basis, (3)
audit reports were prepared in accordance with USAID’s guidelines and sent to
RIG/Budapest for desk review, and the (4) agreements contained the required audit
clauses.

We did not audit USAID/Bulgaria’s MACS database system because of time
constraints and because it was not directly relevant to our audit objective. Also,
because of the small size of the audit universe, we did not use a materiality
threshold and considered even one exception as significant for reporting purposes.




Page 7 of 7                                         Audit Report No. B-183-01-002-P
                                           Appendix II



Management
Comments




             Page 1 of 2   Audit Report No. B-183-01-002-P
                              Appendix II




Page 2 of 2   Audit Report No. B-183-01-002-P
